              Evaluation of the RRB’s Processing of Disability Earnings Cases
                             Report No. 05-03, February 11, 2005

                                                  Introduction

This report presents the results of the Office of Inspector General’s (OIG) evaluation of
the Railroad Retirement Board’s (RRB) processing of disability earnings cases.

BACKGROUND

The RRB’s mission is to administer retirement/survivor and unemployment/sickness
insurance benefit programs for railroad workers and their families under the Railroad
Retirement Act (RRA) and the Railroad Unemployment Insurance Act. During fiscal
year (FY) 2004, the RRB paid approximately $9.1 billion in benefits to annuitants and
railroad employees.

Disability annuities paid to annuitants under full retirement age1 represented 12% of
total benefits during FY 2004. Through this period, employees received approximately
$1.1 billion in disability annuities and, as of September 30, 2004, there were about
48,000 disabled annuitants receiving an average monthly payment of $1,954.

Under the RRA, a total and permanent disability is generally paid if an employee is
disabled for all regular work and has at least ten years of creditable railroad service. An
occupational disability is generally paid if an employee is disabled for his or her regular
railroad occupation and has either ten years of creditable railroad service at age 60 or
20 years of service at any age.

Disabled employees have work restrictions and earnings limitations that can affect their
annuity eligibility2. The annuity is typically subject to a work deduction based on
earnings if they work in non-railroad employment or self-employment after their annuity
beginning date (ABD). A disability annuity is also not payable for any month in which
the annuitant works for a railroad or other employer covered by the RRA. Because
working may indicate recovery from disability, the annuitant is required to promptly
report any earnings to avoid overpayments. Failure to report such earnings could result
in the assessment of an administrative penalty and/or criminal prosecution.

The Office of Programs is responsible for processing disability annuity actions under the
RRA. The office has established monitoring programs to identify post-disability
earnings that have not been disclosed voluntarily.



1
 Full retirement age is the age at which an employee with less than 360 months of railroad service can receive a full
annuity not reduced for early retirement. Full retirement is age 65 for employees born before January 2, 1938, and
gradually increases over a 20-year period to age 67 for those born after January 1, 1938.
2
    45 United States Code § 231a(e)
In its 2003-2008 strategic plan, the RRB has established a goal that the agency will
serve as “responsible stewards for our customers’ trust funds and agency resources”
and a related strategic objective to ensure the integrity of benefit programs. A
component of the President’s Management Agenda is the initiative to reduce erroneous
payments. The Improper Payments Information Act of 2002 requires Federal agencies
to report annually the extent of erroneous payments and the actions they are taking to
reduce such payments. This evaluation directly assesses agency performance in these
key areas.

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this evaluation was to determine if the RRB identified and applied
deductions to disability employee annuities in a timely manner. Our scope included
disabled employee annuitants under age 65 as of January 2003 and in current pay
status.

To achieve our objective, we:

   •   interviewed officials in the Office of Programs;

   •   reviewed pertinent laws, policies and procedures;

   •	 tested 320 cases, on a statistical sample basis, to assess effectiveness of the
      agency’s identification of undisclosed earnings among disability annuitants under
      age 65; and

   •	 tested 30 cases, on a random sample basis, to assess the effectiveness and
      timeliness of the agency’s processing of disability earnings.

The details of our sampling methodology are presented in Appendices I and II of this
report.

This evaluation was conducted in accordance with the President’s Council on Integrity
and Efficiency’s “Quality Standards for Inspections,” as applicable to the objectives.
The fieldwork was conducted at the RRB headquarters in Chicago, Illinois in October
and November 2004.

RESULTS OF REVIEW

Our evaluation determined that the RRB is not identifying and applying work deductions
to disability annuities in a timely manner. The agency has not sufficiently monitored
disabled annuitants with earnings for possible work deductions. The agency did not
investigate earnings cases identified in its 2000 and 2001 program integrity matches,
and failed to properly identify all disabled annuitants who work for a railroad employer
after their ABD. In addition, the agency is not always processing disability earnings
cases to ensure the proper identification and timely collection of overpayments.
The details of our findings and recommendations follow.

DISABLED ANNUITANTS WITH EARNINGS ARE NOT SUFFICIENTLY MONITORED

The Office of Programs has not sufficiently monitored disabled annuitants with earnings
for possible work deductions. Our evaluation of 320 sample cases identified two
annuitants who worked for non-railroad employers and had earnings over the threshold
amount, and four annuitants who worked for railroads and were credited with more than
three service months. Three exceptions had a monetary impact, and based on sample
results, we estimate, with 95% confidence, that the number of currently disabled
annuitants to which work deductions have not been applied is approximately 467.

A disability annuity is not payable for any month in which the annuitant returns to non-
railroad employment and earns over $400 per month and $5,000 or more annually, after
impairment related work expenses are deducted. The annuity is typically subject to a
work deduction of one month’s benefit for each multiple of $400 earned over $4,800 in
yearly earnings.

A disability annuity is also not payable for any month in which the annuitant works for a
railroad or other employer covered by the RRA. Current procedures require that the
agency only investigate post-ABD service of four or more credited service months.
RRB management made this policy decision based on a previous study which showed
that when the railroad has not credited service months or credited only a minimal
number of months to the annuitant’s account, the earnings represented vacation pay or
payments not due to actual work. Railroads are required to submit a report of earnings
and service months to the agency on an annual basis.

The agency uses the following program integrity activities to monitor eligibility status
and identify individuals who no longer qualify for benefits:

   •	 Disability Policing is a process that obtains a yearly earnings summary for each
      annuitant from the Social Security Administration (SSA). All earnings, including
      multiple employers, are included in these summaries. The Office of Programs
      uses this data to determine if any excess earnings are subject to further review.
      This is the agency’s most comprehensive earnings monitoring program.

   •	 Disability state wage matches obtain wage and unemployment benefit data from
      each state under a contractual agreement in accordance with the Computer
      Matching and Privacy Protection Act of 1988.

   •	 Third parties, such as employers, other governmental agencies, or anonymous
      informers provide referrals to the agency.

   •	 Continuing disability reviews involve the agency re-assessing the annuitant’s
      eligibility of benefits based on medical improvement, including determining
      whether annuitants with earnings have successfully returned to work.
   •	 Disabled annuitants respond to annual disability reminder letters requesting them
      to report work and earnings.

   •	 Referral notices from the Service After ABD Process identify questionable
      service months to investigate.

The Office of Programs did not review cases identified from the 2000 and 2001 SSA
disability policing. The office concentrated its work efforts on reducing a backlog of
continuing disability review cases and did not focus on reviewing disability cases for
excess earnings. Although the 2000 and 2001 disability policing results had been
obtained, the office did not use the data because they wanted the results compiled in a
more usable format.

Railroad earnings cases were undetected by the agency systems because the current
Service After ABD Process did not accurately count all service months. The program
only identifies consecutive service months for the current year, but fails to count service
months earned non-consecutively or in multiple years. Officials in the Bureau of
Information Services, which maintains the program, have advised that revisions
currently under development will rectify this deficiency.

Because the Office of Programs has not sufficiently monitored disabled annuitants with
earnings for possible work deductions, we estimate, based on sample testing, that 467
currently disabled annuitants have been overpaid. At the minimum, a one-time amount
of $1.8 million could have been overpaid. An estimate of potential erroneous payments
due to this deficiency is reportable under the Improper Payments Information Act of
2002.

Recommendations

The OIG recommends that:

   1. 	 The Office of Programs complete a review of the 2000 and 2001 disability
        policing results from SSA, including re-verifying any excess prior year earnings
        and tracking the volume and amounts actually overpaid; and

   2. 	 The Bureau of Information Services complete revisions to the Service After ABD
        Process that will accurately identify and compile service months.

Management’s Response

The Office of Programs concurs with recommendation 1 and will develop an action plan
to evaluate and track resolution of cases reviewed by August 15, 2005. The Bureau of
Information Services agrees with recommendation 2 and completed revisions necessary
to properly code cases with earnings after the ABD on January 25, 2005. The Bureau
of Information Services will coordinate with the Office of Programs to run the programs
to produce the listings of cases by April 1, 2005.
Complete copies of the management responses from the Office of Programs and
Bureau of Information Services are included as Appendices III and IV, respectively.

PROCESSING IMPROVEMENTS NEEDED FOR PROPER IDENTIFICATION AND
TIMELY COLLECTION OF OVERPAYMENTS

The Office of Programs is not consistently processing disability earnings cases to
ensure the proper identification and timely collection of overpayments. The office
identified some cases from continuing disability reviews and state wage matches.
However, our review of a random sample of annuitants from the 2001 disability policing
identified cases in which:

   •	 Some earnings reviews, including one case with excess earnings dating from
      1998, were not started until 2003. These reviews have not been completed to
      confirm the earnings, suspend the annuity, and process the overpayment.

   •	 Some earnings reviews, including one case with excess earnings dating from
      1998, were not started until 2004 and have not been completed.

   •	 Earnings information used was incomplete because all earnings were not
      properly identified by agency staff during their review.

   •	 The estimated overpayment receivable for a potential fraud case, which had
      excess earnings dating from 1995, was never established.

The Office of Programs is responsible for processing disability annuity actions under the
RRA. After staff receives results of the program integrity reviews, they are required to
investigate the earnings by contacting the employer and/or annuitant to confirm
employment and suspend existing payments, if necessary. They are required to
calculate any overpayment and forward cases involving potential fraud to the OIG. The
Office of Programs also sends the estimated overpayment information to the Bureau of
Fiscal Operations (BFO) for establishing the receivable. However, the agency
suspends its collection efforts for cases that the OIG has referred to the United States
Department of Justice.

The Office of Programs does not have timeliness standards for the completion of
earnings reviews nor do they have adequate controls to ensure that all earnings are
identified. In addition, the office has not developed procedures to ensure that
overpayment information is forwarded to BFO for cases referred to the OIG. Improperly
processing disability earnings cases contributes to the overpayment of disability annuity
benefits.

Recommendations

The OIG recommends that the Office of Programs:
   3. 	 Establish standards for timely processing of the earnings cases identified in the
        annual disability policing program and report performance;

   4. 	 Issue a reminder to staff of current procedures for identifying all earnings in their
        reviews; and

   5. 	 Develop procedures to ensure that overpayment information for cases referred to
        the OIG is forwarded to BFO for establishment of the receivable.

Management’s Response

The Office of Programs concurs with all three recommendations. They will develop
standards for timely processing of cases by August 15, 2005. They will issue a
reminder notice to staff of current procedures for identifying all earnings by May 15,
2005. Concerning recommendation 5, they have advised that they currently have a
procedure for cases referred to the OIG, but will develop a procedure for establishing
receivable records for cases referred by the OIG by August 15, 2005.

The management response is included as Appendix III.
                                                                              Appendix I

                         Sampling Methodology and Results
                          Disability Annuities Under Age 65

We used statistical sampling to evaluate the effectiveness of the agency’s identification
of undisclosed earnings among disability annuitants under age 65.

Audit Objective and Scope

The objective of our test was to estimate the number of disability annuities for which
work deductions were not properly applied because of excess earnings. We selected
the sample from the population of 49,688 disabled annuitants under age 65 as of
January 2003, and in current pay status as of September 2004.

Evaluation Methodology

We used attribute estimation sampling which yielded a sample size of 320. For each
case, we obtained and reviewed the annuitant’s benefit history for previously applied
work deductions and his/her Social Security Act earnings history for undisclosed
earnings after the annuity beginning date (ABD). If the undisclosed earnings were with
a railroad employer, we reviewed the railroad service months credited to their account.
Any of the following was considered an audit exception:

   •	 Disabled annuitants with earnings over the threshold amount and no work
      deduction. The agency’s threshold amount of $5,000, exclusive of impairment
      related work expenses, is the maximum amount of money that can be earned in
      a year without losing any monthly disability benefits.

   •	 Disabled annuitants who worked for a railroad after their ABD and were credited
      with more than three service months.

Results of Evaluation

Our evaluation of 320 randomly selected disabled annuitants identified three exceptions
with overpayments. Based on sample results, we estimate, with 95% confidence, that
the number of currently disabled annuitants to which work deductions have not been
applied is 467, but could be as low as 99 or as high as 1342. We estimate a minimum
one-time amount of $1.8 million has been overpaid because of the ineffective agency
procedures.

Conclusion

Based on our evaluation, we conclude that the incidence of unprocessed disability work
deductions warrants RRB management’s attention.
                                                                             Appendix II

                       Sampling Methodology and Results 

          Evaluation of Agency Processing of Disability Earnings Cases 


We used random sampling to determine if the agency was processing disability
earnings cases properly to ensure the timely identification and collection of
overpayments.

Audit Objective and Scope

The objective of our testing was to determine if the agency was processing disability
earnings cases properly to ensure the timely identification and collection of
overpayments. Although the agency did not review earnings information from their
2001 disability policing results with the Social Security Administration (SSA), they did
perform continuing disability reviews and some state wage matches which would have
included some, but not all, 2001 earnings cases. We chose the 2001 disability policing
results for our sampling because it yielded a finite population of cases with earnings
from which we could achieve our audit objective.

Evaluation Methodology

We selected a random sample of 30 annuitants from the population of 303 disabled
annuitants with non-railroad earnings over $5,000 that were identified in the 2001
disability policing results with SSA. For each case, we obtained and reviewed the
annuitant’s benefit history for previously applied work deductions and his/her earnings
history for undisclosed earnings. We also reviewed the claim folders and benefit
systems for evidence of agency processing actions and timeliness/completeness of
these actions.

Results of Evaluation

Our evaluation identified 17 exceptions with total potential overpayments of
approximately $650,000. Exceptions included cases where earnings information was
never reviewed, as well as the following processing problems:

   •	 Some earnings reviewed in 2003, including one case with excess earnings dating
      from 1998, did not contain subsequent agency processing to confirm earnings,
      suspend the annuity, and process the overpayment.

   •	 Some earnings reviews, including one case with excess earnings dating from
      1998, were not started until 2004 and have not been completed.

   •	 Earnings information used was incomplete, resulting in failure to identify excess
      earnings, because all earnings were not properly identified by agency staff during
      their review.
   •	 The estimated overpayment receivable for a potential fraud case, which had
      excess earnings dating from 1995, was never established.

Conclusion

Based on these results, we believe that the agency is not processing disability earnings
cases properly to ensure the timely identification and collection of overpayments.
Appendix III
Appendix IV
